which concurred with all five recommendations and identified a timetable for proposed
corrective actions.

Scope and Methodology

The scope of our review was limited to determining whether BLM took sufficient and
timely action to address the five recommendations. We reviewed the supporting
documentation that BLM provided to indicate the status of the recommendations. We also
interviewed BLM program personnel as appropriate.

We did not perform any site visits or conduct any detailed tests to determine whether the
underlying deficiencies that were initially identified have been corrected. As a result, this
status review was not conducted in accordance with the Government Auditing Standards
issued by the Comptroller General of the United States.

                                   Results of Review

Recommendation 1: "Notify the National Response Center of the contamination at
the Saginaw Hill Property."

In response to Recommendation 1, BLM officials explained that they reported the presence
of contaminants at the Saginaw Hill Property to the National Response Center (NRC) on
March 17, 2005. BLM provided us a copy of the memorandum documenting the NRC
notification and the assigned NRC case number. We have concluded that
Recommendation 1 has been resolved and implemented.

Recommendation 2: "Notify the public of the conditions at the site."

In response to Recommendation 2, BLM officials explained that they would complete a
Community Relations Plan and an Engineering Evaluation and Cost Analysis (EE/CA) for
removal action by April 22, 2005. To notify the public of these plans, BLM officials stated
they would conduct public meetings to implement the Community Relations Plan and give
the public 30 days to review the EE/CA. In addition, BLM tested an adjacent landowner’s
well, determined the water quality met drinking standards, and notified the landowner of
these results.

BLM provided us a copy of the completed Community Relations Plan dated January 2005
and a copy of the draft version of the EE/CA dated September 23, 2005. BLM also
provided documents showing that a public meeting on the site and its hazards was
advertised in a local newspaper and was conducted at a local elementary school in June
2005. In January 2006, however, BLM officials told us that the EE/CA had not yet been
issued in final and may need revisions based on comments received from the public during
the 30-day public comment period.

We determined that BLM has taken steps to fulfill the intent of the recommendation;
however, the recommendation cannot be considered fully implemented until the final


                                              2
EE/CA has been issued. We have concluded that Recommendation 2 has been resolved
but not implemented.

Recommendation 3: "Take steps to prevent public access to contaminated areas on
the Saginaw Hill Property."

In the response to Recommendation 3, BLM officials explained that the existing
vandalized fence on the site was repaired and that stolen hazard warning signs were
replaced in February 2005. In addition, BLM officials stated that they would contract for
installation of a new stronger chain link fence and that BLM had erected construction
fences around the abandoned mine shafts. BLM officials noted the fences would remain
until the site was remediated. BLM also planned to issue a Federal Register Notice and a
News Release restricting public use of 20 acres of land around two contaminated sites on
the Saginaw Hill Property.

BLM officials provided us documents showing that the chain link fence and other fences
were installed at the site. BLM officials also provided copies of the Federal Register
Notice and News Release issued in April 2005, which restricted public use of 20 acres of
land around two contaminated sites. We have concluded that Recommendation 3 has been
resolved and implemented.

Recommendation 4: "Conduct an inspection of the Saginaw Hill Property to identify
all physical hazards presenting a safety risk to the public and take action to mitigate
the hazards."

In the response to Recommendation 4, BLM officials explained that they conducted an
"onsite assessment and risk analysis" in February 2005 at the Saginaw Hill Property. The
BLM inspection identified a need to close 28 mine shafts and one mine adit (a mine that
can be entered horizontally). BLM officials also determined that the water used by the
adjacent elementary school is not affected by the contaminants existing on the Saginaw
Hill Property because the school uses water provided by the city as opposed to local well
water.

BLM officials provided us a copy of a Record of Decision signed by the BLM Tucson
Field Office Manager, which revised the closure need to 27 mines, and a copy of a News
Release dated June 21, 2005, announcing this action. Officials at the BLM field office in
Tucson, Arizona, later provided us documentation showing the Record of Decision had
been implemented. We have concluded that Recommendation 4 has been resolved and
implemented.

Recommendation 5: "BLM should assess its lands to identify hazardous sites in close
proximity to populated areas similar to Saginaw Hill. BLM should inspect these sites
and take appropriate action to mitigate any safety hazards."

In the response to Recommendation 5, BLM officials explained that they would "develop a
report on what resources will be needed to identify hazardous sites in close proximity to
populations."


                                            3
On September 13, 2005, BLM issued Instruction Memorandum (IM) No. 2005-231
covering the "Identification of Hazardous Sites Near Populated and High-Use Areas." The
IM implements a field level process for identifying hazardous sites that are located near
highly populated areas, assessing the extent of the hazard, and identifying proposed
mitigating actions and associated cost estimates. The findings from the field level
procedures are to be reported to the BLM Washington Office by March 31, 2006. The
BLM Washington Office will compile this information into a Bureau-wide report which
will be used to develop a proposed resource request and as part of the development of
national abandoned mine land and hazard management program strategies.

We believe this plan is a good start towards protecting the public from the hazards
associated with these sites. However, Recommendation 5 should not be considered
implemented until BLM takes appropriate action to mitigate the safety hazards identified.
We have concluded that Recommendation 5 has been resolved but not implemented.

Conclusion

We informed BLM officials at an exit conference on January 17, 2006, that we concluded
Recommendations 1, 3, and 4 have been resolved and implemented and Recommendations
2 and 5 are resolved but not implemented. BLM officials concurred with our conclusions
on the status of the five recommendations. BLM officials should provide the Office of
Financial Management with action plans to implement Recommendations 2 and 5,
including revised target dates.

Responding to the Review

We are referring Recommendations 2 and 5 to the Office of Financial Management for
tracking of implementation. We request that the Office of Financial Management take the
appropriate follow-up action and inform us of the actions taken on Recommendations 2
and 5.

If you have any questions regarding this report, please call me at (303) 236-9243.

cc:   Focus Leader for Management Control and Audit Follow-up, Office of
        Financial Management, Office of the Assistant Secretary for Policy,
        Management and Budget
      Audit Liaison Officer, Department of the Interior
      Audit Liaison Officer, Assistant Secretary for Land and Minerals Management
      Audit Liaison Officer, Bureau of Land Management




                                             4
                                                            Appendix


            Status of Prior Flash Report Recommendations

Recommendation            Status                 Action Required

   1, 3, and 4          Resolved and     No further action required.
                        Implemented


    2 and 5             Resolved but     Provide the Office of Financial
                       Not Implemented   Management with action plans,
                                         including revised target dates.




                                   5
